COCKE oo

2311 Douglas Street A i
Omaha, Nebraska 68102-1214 Legal B ae - contact@cocklelegalbriefs.com
1-800-225-6964 Web Site
www.cocklelegalbriefs.com

(402) 342-2831
Fax: (402) 342-4850

No. 19-1250

VICTOR ALLEN CLARK,
Petitioner,
vs.
CELEBRITY CRUISES, INC. and
ROYAL CARIBBEAN CRUISES LTD.,
Respondents.

‘CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I certify that the RESPONDENTS’ BRIEF IN
OPPOSITION TO PETITION FOR WRIT OF CERTIORARI in the above entitled case complies
with the typeface requirement of Supreme Court Rule 33.1(b), being prepared in New Century
Schoolbook 12 point for the text and 10 point for the footnotes, and this brief contains 3530 words,
excluding the parts that are exempted by Supreme Court Rule 33.1(d), as needed.

Subscribed and sworn to before me this 22nd day of May, 2020.
Tam duly authorized under the laws of the State of Nebraska to administer oaths.

lO OO re

My Comm. Exp. September 5, 2023
Notary Public Affiant 39836
